No.

IN THE
Supreme Court of the United States

JOSE LUIS SANCHEZ, JR..,,

Petitioner,
Vv.

UNITED STATES OF AMERICA,
Respondent.

On Petition For Writ of Certiorari
To The Ninth Circuit Court of Appeals

 

PROOF OF SERVICE

 

I, Richard D. Wall, counsel for Petitioner appointed pursuant to 18 U.S.C.

ยง3006A of the Criminal Justice Act of 1964, hereby certify that I am a member of the
Bar of this Court and that on this 12th Day of March, 2021, a true and correct copy of the
Petition for Writ of Certiorari, including Appendix, was sent to the following via US Mail
postage prepaid at the address below:

15

John J. Sampson

Assistant United States Attorney
Office of the US Attorney

P.O. Box 40116

Olympia, WA 98504-0116

Solicitor General of the United States
Room 5616, Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001

 
